Department of Health and Human Services 

             OFFICE OF 

        INSPECTOR GENERAL 





MEDICARE LIFETIME RESERVE DAYS

           REPORT TO CONGRESS





                     Inspector General

                       December 2004
                      OEI-09-04-00100
               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts management and
program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. The OCIG imposes program exclusions and
civil monetary penalties on health care providers and litigates those actions within the
department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
∆
   A B S T R A C T



                   We conducted this study pursuant to section 953(d) of the Medicare
                   Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
                   concerning Medicare lifetime reserve days. Medicare beneficiaries are
                   entitled to coverage of 90 hospital days during any spell of illness. If
                   beneficiaries need more than 90 days, they are entitled to an additional
                   60 non-renewable days of care, called lifetime reserve days. As
                   mandated by the MMA, the purpose of this study is to determine the
                   extent to which hospitals notify Medicare beneficiaries about their
                   lifetime reserve days and assess the appropriateness and feasibility of
                   providing an additional notification to beneficiaries before they exhaust
                   their lifetime reserve days. In calendar year 2003, approximately
                   37,000 beneficiaries used 1 or more of their lifetime reserve days.

                   Based on self-reported information from a random sample of
                   147 hospitals, 86 percent of hospitals provide written and/or verbal
                   notices about lifetime reserve days to beneficiaries who have used or
                   will use 90 days of benefits, while 14 percent do not. Because they
                   cannot retrieve accurate and timely beneficiary utilization data,
                   33 percent of hospitals are unable to strictly comply with the Medicare
                   Benefit Policy Manual guidelines that require hospitals to notify
                   patients when they have 5 regular coinsurance days remaining. Based
                   on information from hospitals and beneficiaries, providing a second
                   notice may not be appropriate or feasible.

                   In response to our draft report, the Centers for Medicare and Medicaid
                   Services will issue further clarification to explain its lifetime reserve
                   days policies to hospitals.




 OEI-09-04-00100   LIFETIME   RESERVE   D AY S                                             i
∆   E X E C U T I V E                           S U M M A R Y


                  OBJECTIVE
                  To (1) determine the extent and means by which hospitals comply with
                  the current requirement to notify Medicare beneficiaries about lifetime
                  reserve days and (2) assess the appropriateness and feasibility of
                  providing an additional notification prior to beneficiaries exhausting
                  their lifetime reserve days.


                  BACKGROUND
                  Statutory Mandate for Study
                  Section 953(d) of the Medicare Prescription Drug, Improvement, and
                  Modernization Act of 2003 requires the Office of Inspector General to
                  conduct a study relating to the use of hospital lifetime reserve days.
                  The report to Congress is to include the extent to which hospitals
                  provide notice to Medicare beneficiaries in accordance with the current
                  applicable requirements and the appropriateness and feasibility of
                  hospitals providing an additional notice to beneficiaries before they
                  exhaust their lifetime reserve days.

                  For the study, we conducted a survey of 147 hospitals from a simple
                  random sample of hospitals with patients who used more than 1 lifetime
                  reserve day. In addition to completing the survey, we requested that
                  hospitals provide us with copies of the policies and notices that they use
                  to inform beneficiaries about lifetime reserve days. To gather
                  qualitative information, we selected a purposive sample of 10 hospitals
                  from the random sample. We conducted in-depth interviews with those
                  hospitals and some of their patients who had used lifetime reserve days.
                  Medicare Coverage for Inpatient Hospital Services
                  Under section 1861 of the Social Security Act (the Act), a beneficiary
                  is entitled to an unlimited number of benefit periods, each of which
                  includes 90 days of covered inpatient hospital services. A benefit
                  period, or “spell of illness,” begins on the first day the beneficiary is
                  an inpatient in a Medicare certified acute care hospital or skilled
                  nursing facility (SNF). The benefit period ends 60 days after the
                  hospital or SNF discharges the beneficiary.

                  Section 1812 of the Act defines the scope of inpatient hospital benefits
                  and includes the provision regarding 60 nonrenewable lifetime reserve
                  days, which a beneficiary may draw upon whenever hospitalized for
                  more than 90 days in a benefit period. Pursuant to the implementing
                  regulations, which are contained in 42 CFR § 409.65, hospitals may bill

OEI-09-04-00100   LIFETIME   RESERVE   D AY S                                                 ii
E X E C U T I V E                 S U            M M A R Y


                   Medicare for lifetime reserve days, unless the beneficiary elects not to
                   use them or is deemed to have elected not to use them. Hospital
                   notification requirements are delineated in the Medicare Benefit Policy
                   Manual, which was developed by the Centers for Medicare & Medicaid
                   Services.

                   If the beneficiary elects not to use lifetime reserve days, the beneficiary
                   becomes responsible for hospital charges beginning with the 91st day in
                   the benefit period. Similarly, if the beneficiary uses all 60 lifetime
                   reserve days and remains in the hospital beyond 150 days, the
                   beneficiary becomes responsible for hospital charges on the 151st day.


                   FINDINGS
                   The following findings are based on the self-reported responses of a
                   random sample of 147 hospitals as of August 2004. Because we
                   randomly selected the hospitals and the confidence intervals are
                   reasonably precise, it is appropriate to project the sample responses to
                   the entire population of hospitals that have experience with Medicare
                   beneficiaries who have used their lifetime reserve days.
                   Eighty-six percent of hospitals provide written and/or verbal notices
                   about lifetime reserve days to Medicare beneficiaries who have used
                   or will use 90 days of benefits. The remaining 14 percent of hospitals
                   that do not provide the required notification did not typically offer a
                   reason. Eight percent of hospitals with beneficiaries using lifetime
                   reserve days indicate that they do not provide any information about
                   lifetime reserve days either upon admission or sometime during the
                   beneficiary’s hospital stay. Some of the respondents that do not provide
                   notices indicated that they lacked timely information about the number
                   of lifetime reserve days beneficiaries had available. Case study hospital
                   officials confirmed this concern about timely information. However,
                   case study hospital officials said that they work routinely with
                   beneficiaries to assist them in understanding their financial obligations.

                   Because the hospitals cannot retrieve accurate beneficiary utilization
                   data, 33 percent of hospitals are unable to strictly comply with the
                   Medicare Benefit Policy Manual guidelines that require them to notify
                   patients when they have 5 regular coinsurance days remaining. In
                   contrast, 61 percent of hospitals discuss the option to use lifetime
                   reserve days each time a patient is readmitted, if the patient has only
                   5 coinsurance days left in the benefit period.



 OEI-09-04-00100   LIFETIME   RESERVE   D AY S                                             iii
E X E C U T I V E                 S U            M M A R Y


                   Providing a second notice may not be appropriate or feasible. While
                   64 percent of hospitals believe an additional notice could be helpful,
                   hospitals and beneficiaries agree that it may be inappropriate and
                   unfeasible to do so. For example, 66 percent of hospital officials stated
                   that an additional notice would affect their operational costs and staff
                   time. Furthermore, case study beneficiaries said an additional notice
                   about exhausting their lifetime reserve days would not have affected
                   their decisions about their care.


                   AGENCY COMMENTS
                   In response to our draft report, the Centers for Medicare and Medicaid
                   Services will issue a Medlearn Matters article to further clarify the
                   lifetime reserve days benefit. Specifically, the Medlearn article will
                   inform hospitals how to obtain information about lifetime reserve days
                   as well as clarify the Medicare coverage of inpatient hospitals under
                   section 1861 of the Act.




 OEI-09-04-00100   LIFETIME   RESERVE   D AY S                                          iv
∆   T A B L E                    O F             C O N T E N T S



                  ABSTRACT .................................................i



                  E X E C U T I V E S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii 



                  INTRODUCTION ........................................... 1



                  FINDINGS ................................................. 7

                             Hospital Notifications . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7 


                             Second Notice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 




                  A P P E N D I C E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                             A: Sample Election Notice . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 


                             B: Selected Hospital Survey Questions . . . . . . . . . . . . . . . . . . . . . 13 


                             C: Case Study Hospitals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


                             D: Beneficiary Interviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


                             E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 



                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 





OEI-09-04-00100          LIFETIME   RESERVE   D AY S                                                                                     v
  ∆         I N T R O D U C T I O N


                    OBJECTIVE
                    To (1) determine the extent and means by which hospitals comply with
                    the current requirement to notify Medicare beneficiaries about lifetime
                    reserve days and (2) assess the appropriateness and feasibility of
                    providing an additional notification prior to beneficiaries exhausting
                    their lifetime reserve days.


                    BACKGROUND
                    Statutory Mandate for Study
                    Section 953(d) of the Medicare Prescription Drug, Improvement, and
                    Modernization Act of 2003 (MMA) (P.L.108-173) requires the Office of
                    Inspector General (OIG) to conduct a study relating to the use of
                    hospital lifetime reserve days (LRDs). The MMA requires OIG to
                    submit a report no later than 1 year after enactment
                    (December 8, 2004). The report to Congress is to include:

                            • 	 the extent to which hospitals provide notice to Medicare
                                beneficiaries in accordance with the applicable requirements,

                            • 	 the appropriateness of providing an additional notice to 

                                beneficiaries before they exhaust their LRDs, and 


                            • 	 the feasibility of hospitals providing an additional notice to
                                beneficiaries, before they exhaust their LRDs.

                    The MMA does not define the terms “appropriateness” and “feasibility.”
                    Therefore, based on discussions with legislative staff, we are defining
                    “appropriateness” as helpfulness to beneficiaries and “feasibility” as the
                    ability of hospitals to provide an additional notice in a timely manner.
                    Medicare Coverage for Inpatient Hospital Services
                    Under section 1861 of the Social Security Act (the Act), a beneficiary is
                    entitled to an unlimited number of benefit periods, each of which
                    includes 90 days of covered inpatient hospital services. A benefit period,
                    or “spell of illness,” begins on the first day the beneficiary is an
                    inpatient in a Medicare certified acute care hospital or skilled nursing
                    facility (SNF). The benefit period ends 60 consecutive days after the
                    hospital or SNF discharges the beneficiary.

                    Section 1812 of the Act defines the scope of inpatient hospital benefits
                    and includes the provision regarding 60 nonrenewable LRDs, which a
                    beneficiary may draw upon whenever hospitalized for more than


OEI-09-04-00100     L I F E T I M E R E S E R V E D AY S                                         1
    I N T R O D   U C T             I O N


                   90 days in a benefit period. The beneficiary pays 50 percent of the
                   benefit period deductible as a daily copayment for LRDs (42 CFR
                   § 409.83). In 2004, the deductible is $876; therefore, beneficiaries pay
                   $438, as a daily coinsurance for each LRD that they use in 2004.

                   The Act and implementing regulations are silent concerning LRD notice
                   requirements. The implementing regulations, 42 CFR § 409.65, state:

                           • 	 Hospitals may bill Medicare for LRDs unless the beneficiary
                               elects not to use them or is deemed to have elected not to use
                               them.

                           • 	 If the beneficiary elects not to use LRDs, the hospital may
                               require the beneficiary to pay for any services after regular days
                               are exhausted.

                           • 	 A beneficiary will be deemed to have elected not to use LRDs if
                               charges for such days are equal to or less than the applicable
                               coinsurance.

                           • 	 The beneficiary’s election not to use LRDs must be in writing.

                           • 	 The election may be filed at the time of admission or at any time
                               up to 90 days after discharge.

                           • 	 An election not to use LRDs may apply to an entire stay or to a
                               single period of consecutive days in a stay, but cannot apply to
                               selected days in a stay.

                   Regulations also allow the beneficiary to revoke an election not to use
                   LRDs during hospitalization or within 90 days after discharge
                   (42 CFR § 409.66). The beneficiary must submit the revocation in
                   writing. The revocation not to use LRDs may not be filed after the
                   hospital has filed a claim under the supplementary medical insurance
                   program or the beneficiary dies.

                   After beneficiaries use all of their LRDs and exhaust their Part A
                   benefits, they become responsible for hospital charges. However,
                   beneficiaries remain entitled to Part B benefits for physician services
                   and some ancillary services while they remain in the hospital during the
                   same spell of illness. Beneficiaries continue to be responsible for
                   hospital charges until a new benefit period begins, even if they are
                   readmitted to another hospital or skilled nursing facility (42 CFR
                   § 409.61).




OEI-09-04-00100    L I F E T I M E R E S E R V E D AY S                                         2
    I N T R O D 
U C T             I O N


                  The Centers for Medicare & Medicaid Services’ (CMS) Medicare Benefit
                  Policy Manual (Manual) provides the only guidance to hospitals
                  regarding notification and implementing instructions for the LRD
                  benefit. According to the Manual, section 30.1, “Hospital notice should
                  be given when the beneficiary has 5 regular coinsurance days left and is
                  expected to be hospitalized beyond that period.” This section of the
                  Manual does not require written notice. The Manual states, “The
                  hospital should annotate its records at the time it informs beneficiaries
                  of the option, but a written statement (by the beneficiary or
                  representative) need only be included if patients elect not to use LRDs.”
                  (See appendix A.)
                  Lifetime Reserve Day Use
                  During 2003, beneficiaries used nearly 980,000 inpatient hospital LRDs.
                  This represents less than 1 percent of the more than 98 million total
                  inpatient hospital days that beneficiaries used in 2003. This percentage
                  has remained consistent for the past 8 years.

                  According to the Medicare National Claims History (NCH), nearly 

                  37,000 Medicare beneficiaries used 1 or more LRDs during calendar 

                  year 2003. This represents less than 1 percent of the more than 

                  7.5 million Medicare beneficiaries who had inpatient hospital stays 

                  during 2003. Of these 37,000 beneficiaries, approximately 

                  6,800 beneficiaries used 50 or more LRDs and about 4,400 used their 

                  entire 60 LRDs. 


                  Beneficiaries who are less than 65 years old represent approximately
                  18 percent of Medicare beneficiaries. However, they account for a larger
                  proportion of beneficiaries who use LRDs. One-third of the
                  37,000 beneficiaries who used LRDs in 2003 are less than 65 years old.
                  Of those beneficiaries under age 65, 20 percent used 50 or more LRDs.
                  While 29 percent of beneficiaries who used LRDs in 2003 are between
                  65 and 74 years old, 29 percent are between 75 and 84 years old, and
                  9 percent are 85 years or older. Of those beneficiaries 85 years or older,
                  approximately 500 beneficiaries used 50 or more LRDs during 2003.

                  Three Diagnostic Related Groups (DRGs) are the most frequently used
                  diagnoses that require hospital care beyond the 90 days in a benefit
                  period:

                          •       DRG 430—psychoses

                          •       DRG 087—pulmonary edema and respiratory failure

                          •       DRG 475—respiratory system diagnosis with ventilator support

OEI-09-04-00100   L I F E T I M E R E S E R V E D AY S                                      3
    I N T R O D   U C T             I O N


                   These DRGs account for nearly 25 percent of the beneficiary claims that
                   used more than 1 LRD.


                   METHODOLOGY
                   We used multiple methodologies to accomplish our objectives. We
                   conducted a mail survey of hospitals; reviewed Medicare data;
                   conducted case studies; and interviewed advocacy groups, professional
                   associations, and senior services programs.
                   Hospital Survey
                   We selected a simple random sample of 150 hospitals using data from
                   the NCH. From the NCH, we extracted all 2003 inpatient claims
                   (received through December 31, 2003) for patients who used more than
                   1 LRD. From this data extract, we produced a database that contained
                   1 observation per hospital, from which we selected a simple random
                   sample of 150 hospitals. To locate the hospitals, we matched the
                   provider numbers with the Online Survey Certification and Reporting
                   (OSCAR) database. For those provider numbers that did not match the
                   database, we contacted the Medicare fiscal intermediaries for names
                   and addresses.
                   Pretesting Survey Instrument We developed a survey of open and closed
                   end questions. We conducted pretesting of the instrument with four
                   representative hospitals: a tertiary teaching facility, a long-term acute
                   care facility, an urban hospital, and a rural county hospital.

                   In addition to testing the survey instrument, we asked the hospitals to
                   provide us with either a sample of a beneficiary LRD notice or a
                   description of the type of notation that hospital staff made in the patient
                   record regarding the option not to use LRDs. We also asked them for
                   copies of policies describing their process for informing beneficiaries of
                   the option not to use LRDs. We reviewed a sample of medical and
                   financial records for beneficiaries who used LRDs in 2003.
                   Mail Survey From our random sample of 150 hospitals we excluded
                   3 hospitals that were under investigation by the OIG’s Office of
                   Investigations. As a result, we mailed 147 surveys. We addressed the
                   survey to the Chief Executive Officer and asked that it be completed
                   by the person(s) responsible for assuring that beneficiaries are
                   informed of their Medicare benefits and hospital costs specific to
                   LRDs. In addition, we asked the hospitals to include copies of their
                   policies and the notices they use to inform patients about LRDs. We


OEI-09-04-00100    L I F E T I M E R E S E R V E D AY S                                   4
    I N T R O D 
U C T             I O N


                  conducted fax and telephone followups to hospitals that failed to 

                  respond by the request date, so that we received 100 percent of 147 

                  surveys before beginning our data analysis. (See appendix B for 

                  selected survey questions.) 

                  National Claims History Review
                  We conducted an analysis of the Medicare NCH of 100 percent of the
                  beneficiaries who used 1 or more LRDs during 2003. We contacted
                  the fiscal intermediaries for details of beneficiaries in which we found
                  discrepancies between the NCH and what the hospitals in our case
                  study reported. We analyzed the NCH to identify any common
                  demographics or statistical issues that might be relevant to when and
                  how beneficiaries are using LRDs. We used the NCH to verify some
                  of the information we received in our case studies.
                  Case Study
                  To enrich our quantitative analysis and gather firsthand information
                  from hospitals and beneficiaries with knowledge about LRDs, we
                  developed a two-part case study that consisted of interviews with
                  hospital officials and beneficiaries who had been inpatients in those
                  hospitals. We identified a purposive sample of 10 hospitals from the
                  random sample of hospitals we used for the mail survey. (See appendix
                  C.) We selected three States in which each hospital had at least one
                  beneficiary who used less than 10 LRDs and one who used more than
                  50 LRDs. We conducted onsite interviews with staff responsible for
                  informing beneficiaries about their Medicare benefits and LRDs. These
                  included patient financial services representatives, discharge planners,
                  nurses, social workers, and senior financial managers. In addition to
                  the interviews, we reviewed hospital financial and medical records to
                  verify annotations regarding the LRD notifications.

                  For the second part of the case study, we identified 20 Medicare
                  beneficiaries from the hospitals in our cluster. Ten beneficiaries used
                  more than 50 LRDs, and 10 beneficiaries used less than 10 LRDs during
                  2003. Eleven beneficiaries were under age 65, and nine were over
                  age 65. We were unable to locate or interview six of the beneficiaries.
                  We subsequently interviewed 14 beneficiaries or their representatives.
                  Four of the respondents were representatives for beneficiaries who had
                  died before our contact. We conducted personal interviews with the
                  beneficiaries or their representatives either by phone or at their
                  residence.



OEI-09-04-00100   L I F E T I M E R E S E R V E D AY S                                    5
    I N T R O D   U C T             I O N


                   Telephone Interviews
                   We selected 17 organizations that were likely to provide information to
                   beneficiaries or their members about LRDs or might have anecdotal
                   information regarding how well beneficiaries understand their Medicare
                   benefits and LRDs. They consisted of five senior advocacy groups from
                   four States; four senior citizens services programs in four States; five
                   professional associations representing hospitals, health care finance,
                   and nursing services; one fiscal intermediary; and two Medicare
                   supplemental insurance carriers. We interviewed representatives of
                   these organizations to gain a better understanding of how frequently
                   they encounter LRDs and how they help beneficiaries understand the
                   option.

                   This inspection was conducted in accordance with the Quality
                   Standards for Inspections issued by the President’s Council on Integrity
                   and Efficiency.




OEI-09-04-00100    L I F E T I M E R E S E R V E D AY S                                 6
  ∆

  F I
            F I N D I SN G S
           N D I N G



    Eighty-six percent of hospitals provide written            In response to our survey,
       and/or verbal notices about lifetime reserve            86 percent of hospitals, in
                                                               compliance with the Medicare
    days to Medicare beneficiaries who have used
                                                               Benefit Policy Manual, give a
                     or will use 90 days of benefits
                                                               verbal, written, or combination of
                       notices about the LRD option to Medicare beneficiaries who have used
                       or will use 90 days of benefits.1 The remaining 14 percent of hospitals
                       that do not provide the required notification did not typically offer a
                       reason. Eight percent of hospitals with beneficiaries using LRDs do not
                       provide any information about LRDs either upon admission or sometime
                       during the beneficiary’s hospital stay.

                       In response to the survey question that asked hospitals how they inform
                       beneficiaries about the status of their remaining benefit days (including
                       LRDs), 13 percent reported that they were unable to obtain information
                       about the current benefit status in a timely manner. Several hospital
                       officials whom we interviewed as part of our case studies confirmed this.
                       Those officials said that hospitals might submit bills more than 60 days
                       after the beneficiary has been discharged, thereby preventing a
                       subsequent hospital or SNF from accurately determining the benefit
                       status during a spell of illness. Thirty-three percent of hospitals
                       reported that they are unable to comply with the Manual requirement
                       to notify patients when they have 5 regular coinsurance days
                       remaining. The hospitals are unable to retrieve accurate and timely
                       information concerning LRDs from their fiscal intermediary or the
                       Common Working File (CWF)2.
                       Hospitals attempt to provide LRD notices in various ways
                       Based on the results of our hospital survey, 23 percent of hospitals have
                       developed their own written policies that direct staff how to inform
                       beneficiaries about LRDs. Sixty-one percent of hospitals further comply
                       with the Manual by discussing the option to use LRDs with Medicare
                       patients each time they are readmitted, if the patient has only

                       1 Findings are based on the self-reported responses of a random sample of 147 hospitals as
                          of August 2004. Because we randomly selected the hospitals and the confidence intervals
                          are reasonably precise, it is appropriate to project the sample responses to the entire
                          population of hospitals with Medicare beneficiaries using LRDs. For the confidence
                          intervals concerning the statistics cited in this report, see Appendix B.
                       2 The CWF is a Medicare benefit coordination and claims validation system. A hospital
                          submits a claim to its fiscal intermediary who sends the claim to the CWF host site for
                          edit checks and payment authorization. The host site edits and reviews the claim for
                          entitlements, deductible status, and accuracy.



OEI-09-04-00100        L I F E T I M E R E S E R V E D AY S                                                         7
    F 	I N D I N G 
S


                   5 coinsurance days left in the benefit period. While not required to do
                   so, 15 percent of hospitals have established a policy for notifying
                   beneficiaries that they are exhausting their LRDs.

                   In nearly 73 percent of hospitals, the admission and billing departments
                   are responsible for informing beneficiaries about their benefits,
                   including LRDs. Hospital policies typically include statements such as:

                           • 	 The coordinator will monitor days used…;

                           • 	 From their Medicare available days, the case manager will write
                               a note…; and

                           • 	 Regarding the notification, a signed consent giving permission to
                               use…done on admission.
                   Case study hospitals confirm survey results
                   Based on interviews with 10 case-study hospitals, hospitals are not
                   consistent as to when and how the notice is given and where in the
                   patient’s record the notation is made. Five of the ten hospitals give the
                   beneficiaries a form during the admission process that allows them to
                   elect to use or not to use LRDs during the spell of illness. One hospital
                   does not have a form, but makes a notation in the financial record when
                   the beneficiary is informed of the option. Other hospital policies vary
                   depending on the case information about the beneficiary and the
                   beneficiary’s financial coverage.

                   Hospital staff refers to the Manual (Chapter 5) for guidance. It states
                   that the hospital should annotate its records and should make available
                   an appropriate statement or form if the patient elects not to use LRDs.
                   Frequently, a hospital staff member enters notations only if the
                   beneficiary elects not to use LRDs. In four case study hospitals, the
                   election to use or not to use LRDs was part of the patient’s financial
                   record. Two hospitals entered the notices as part of the medical record,
                   and three kept a record in the patient’s financial and medical records.
                   One case study hospital does not retain any official record, but,
                   according to the administrator, the social workers “… may annotate
                   discussion about LRDs in their notes.” Five of the ten case study
                   hospitals have implemented specific hospital policies directing staff how
                   and when to inform beneficiaries about making the election to use or not
                   to use LRDs. The remainder uses the Manual as their primary
                   reference.

                   Six of the ten case-study hospitals cited inaccuracy of the CWF as a
                   major reason for not being able to provide timely notices. Inaccuracies

OEI-09-04-00100    L I F E T I M E R E S E R V E D AY S                                      8
    F   I N D I N G 
S


                    in the CWF may occur because of mistakes in hospital billing or delays
                    in the billing processes, which could prevent the fiscal intermediary
                    from entering the data into the CWF for 60 days or more. Multiple
                    readmissions, self-referrals to specialty care, and transient beneficiaries
                    also affect the reliability of the CWF data.

                    All of the 10 case-study hospitals have financial staff that work
                    routinely with beneficiaries or their representatives to assist them in
                    understanding their financial obligations. This includes the LRD option
                    and the financial consequences of electing not to use LRDs. Seven of
                    the case-study hospitals assign a financial counselor to each beneficiary
                    who is identified as a “long-term stay” (approaching 90 benefit days) to
                    work with the beneficiary or the beneficiary’s representative to answer
                    questions and provide assistance regarding benefits, payments, and
                    options.
                    Hospitals do not interpret uniformly the notice requirements and
                    beneficiaries find the LRD option confusing
                    According to 42 CFR § 409.65 (d)(1), “The beneficiary’s election not to
                    use lifetime reserve days must be filed in writing…” In addition,
                    pursuant to 42 CFR § 409.65(d)(2), “…the election may be filed at the
                    time of admission … or any time thereafter up to 90 days after the
                    beneficiary’s discharge.” While the regulation states that the beneficiary
                    must file an election not to use LRDs in writing, in practice hospitals
                    implement the regulation differently. Of the 52 sample notices we
                    received with the survey responses, 36 notices gave the beneficiary the
                    choice of electing to use or not to use LRDs. Nine notices used the CMS
                    suggested format in which the beneficiary only elects not to use LRDs.
                    (See appendix A.) Two notices stated that by not signing the form the
                    beneficiary agreed to use LRDs, and one notice stated that failure to
                    sign indicated an election not to use LRDs.

                    Case-study beneficiaries and beneficiary representatives also mentioned
                    that the LRD election option was confusing. (See appendix D.) Most of
                    the beneficiaries said the definition of LRDs, their obligations, and
                    options were overwhelming. One beneficiary said, “I never heard the
                    term LRDs mentioned the whole time I was in the hospital.” Another
                    said, “There was so much paperwork I didn’t know what I was signing.”
                    A beneficiary representative summed up the reactions of many of the
                    interviewed representatives by stating, “This was the first time we had
                    to make choices for my mother and we didn’t know anything about the
                    Medicare benefits. We just listened to the hospital.” While 10 of the


OEI-09-04-00100     L I F E T I M E R E S E R V E D AY S                                    9
    F   I N D I N G          S


                           beneficiaries had signed forms in their hospital records electing to use
                           their LRDs, only 2 remember signing them.


                  Providing a second notice may not be             Based on the hospital survey,
                                                                   64 percent of hospitals believe an
                                 appropriate or feasible
                                                                   additional notice might be helpful
                           or very helpful. However, 66 percent of hospitals said that such a
                           requirement would not be feasible because it would increase their
                           operational costs and staff time. Of the 27 percent of hospitals that
                           specifically stated that a second notice would not be helpful, almost
                           one-third volunteered that the second notice would just add to the
                           beneficiary’s confusion. Overall, survey respondents listed the acuity
                           level of the beneficiary, the lack of understanding by the beneficiary or
                           the beneficiary’s representative about LRDs, and the inaccuracy of the
                           CWF regarding the status of days used as reasons a second notice would
                           not be appropriate or feasible.
                           Case-study hospitals express reservations about the value of a second
                           notice
                           Three of the ten case-study hospitals expressed legal and compliance
                           concerns that could arise for not providing accurate information and not
                           giving notice within the required timeframe. They stated that the
                           information in the CWF would affect the accuracy and timeliness of
                           their response. They also had concerns about the best way to deliver a
                           second notice. The case-study hospitals generally agreed that if a
                           second notice is mandated, it should come directly from CMS in a
                           standardized form.

                           The case-study hospitals indicated that they routinely attempt to keep
                           these beneficiaries or their representatives informed of their benefit
                           status. While 4 of the 10 case-study hospitals have a policy to notify
                           beneficiaries that they were about to exhaust their LRDs, all
                           10 hospitals agreed that financial planning was not done in a “vacuum.”
                           “We are working with these unique patients through their entire length
                           of stay to help them identify appropriate financial resources or qualify
                           for medical assistance.” In addition, the hospital staff stated that the
                           idea of “once in a lifetime” and “lifetime reserve” were rather ominous
                           issues to discuss considering the health status of the beneficiaries at
                           that time.

                           One case-study hospital official stated, emphatically, that the hospital
                           did not inform beneficiaries about exhaustion of LRDs, as a matter of

OEI-09-04-00100            L I F E T I M E R E S E R V E D AY S                                  10
    F   I N D I N G 
S


                    policy. The official commented that such information would not be
                    appropriate, because it would cause unnecessary stress on the
                    beneficiary and family. The official also believes that by the time a
                    beneficiary approaches exhaustion of LRDs, the hospital has explored
                    the financial options available and is ready to assist the family with
                    financial aid.
                    According to case-study beneficiaries, an additional notice is unnecessary
                    The 14 case-study beneficiaries and representatives did not think that
                    an additional notice would have been helpful. Of the seven beneficiaries
                    who used 50 or more LRDs, and to whom a second notice would have
                    applied, all agreed that an additional notice would not have affected
                    their decisions about their care. When asked about their LRD benefit,
                    8 of the 14 beneficiaries or representatives said that they were
                    frightened by the idea that they might have to leave the hospital after
                    exhausting their LRDs or that their level of care might decrease.

                    The fiscal intermediary concurred that an additional notice would not
                    be beneficial, because the hospital may not have current information
                    about the actual number of LRDs used. In some instances, the
                    beneficiary could be given a notice of near exhaustion when, in reality,
                    they had already used all of their LRDs.

                    Case study-beneficiaries and hospitals agreed that they frequently do
                    not discuss LRDs because of the catastrophic nature of the beneficiary’s
                    illness. One beneficiary representative summed up the reactions of
                    those interviewed by saying that none of these financial choices
                    mattered at that stage of illness.

                    Anecdotally, two representatives who spoke for deceased beneficiaries
                    stated that they were receiving bills now, nearly 1 year later, which
                    they did not understand. They “wished” that someone had spent more
                    time explaining the benefits. However, they agreed that they really had
                    no choice regarding LRDs because of the financial consequences of not
                    using them.

                    One Medicare advocacy attorney agreed with case-study beneficiaries
                    who opposed the idea of an additional notice. He thought this was too
                    traumatic a period for most beneficiaries to be given a notice that stated
                    in part, “Medicare will no longer pay for your Part A hospital expenses.”
                    He added, “There is just too much paperwork for the beneficiary to
                    handle now. This just adds to the confusion.”




OEI-09-04-00100     L I F E T I M E R E S E R V E D AY S                                  11
  ∆         A P P E N D I X                                ~     A



             Medicare Benefit Policy Manual: § 40.1 - Election Format (sample)




        Election Not to Use Lifetime Reserve Days



        I do not wish to have Medicare benefits paid on my behalf under the lifetime
        reserve provisions of section 1812 (b) of the Act for services furnished me by
        (name of hospital) beginning (date).



        WHERE THE ELECTION MAY TERMINATE BEFORE THE END OF THE
        STAY IN ACCORDANCE WITH § 40, THE FOLLOWING MAY BE
        INCLUDED:


        The last day to which this election applies is (date).



        I understand that I will be responsible for all of the hospital’s charges not
        reimbursed by Medicare because of this election, except those covered under
        Medicare Part B. Where Medicare Part B payments may be made for services
        furnished during this period covered by the election, I will be responsible for
        the deductible and 20 percent coinsurance amounts.



        (Signature)

        (Date)
        (HI claim number)




OEI-09-04-00100           L I F E T I M E R E S E R V E D AY S                            12
    ∆            A P P E N D I X                                        ~       B



                                                        Selected Hospital Survey Questions

                                                                                                             Point            95%
                   Survey Question                                                  Response
                                                                                                            Estimate   Confidence Interval

 In reference to the Medicare benefit period, what                                   Written                 54.4%       46.0% - 62.7%
 type of notice do you provide to Medicare
 beneficiaries who have used or will use 90 days of                                  Verbal                  69.7%       60.5% - 76.1%
 benefits, about their option to use lifetime reserve
 days?                                                                               None                    14.3%        9.1% - 21.0%
 (check all that apply)
                                                                        Total hospitals that have some
                                                                        notification process                 85.7%       79.0% - 90.9%

 Do you discuss the option to use lifetime reserve
                                                                                     Yes                     60.7%       52.2% - 68.7%
 days with Medicare patients each time they are
 readmitted after using 85 benefit days or more in
                                                                                     No                      39.3%       31.3% - 47.8%
 the same benefit period?
 How do you inform Medicare patients (or their                          Provide an additional copy of the
 representatives) who have multiple readmissions                        standard notice with each            28.3%       21.1% - 36.3%
 in a single benefit period about their benefit days?                   readmission
 (check all that apply)                                                 Provide counseling and medical
                                                                        records notation when the            19.3%       13.2% - 26.7%
                                                                        patient has been readmitted
                                                                        Provide verbal confirmation of
                                                                        benefit status during the            49.0%       40.6% - 57.4%
                                                                        admission process

                                                                        Other (describe)                     30.3%       23.0% - 38.5%

 Can you retrieve accurate beneficiary lifetime
                                                                                    Yes                      66.7%       58.3% - 74.3%
 reserve days information (from external sources)
 in a timely manner to meet the current 5 day
                                                                                    No                       33.3%       25.7% - 41.7%
 requirement?
 Do you currently have a hospital policy for                                        Yes                      14.8%        9.4% - 21.7%
 notifying beneficiaries that they are exhausting
 their lifetime reserve days?                                                       No                       85.2%       78.3% - 90.6%

 How helpful would a Medicare policy be that                                        Very helpful             27.4%       20.3% - 35.4%
 requires an additional notice to Medicare patients                                 Helpful                  36.3%       28.5% - 44.7%
 (or their representatives) prior to exhaustion of                                  Not very helpful         14.4%        9.1% - 21.1%
 their lifetime reserve days?                                                       Not helpful at all       12.3%        7.5% - 18.8%
                                                                                    Don’t know               9.6%         5.3% - 15.6%
Source: Hospital survey, Office of Evaluation and Inspections, 2004




  OEI-09-04-00100                      L I F E T I M E R E S E R V E D AY S                                                              13
  ∆           A P P E N D I X                                       ~           C




                                                                 Case Study Hospitals

                                                        Number of Medicare          Number of Beneficiaries Who Used One or More
  Hospital          Number of Beds
                                                       Beneficiaries in 2003        Lifetime Reserve Days in 2003

       1                    659                                       3,312                                 18

       2                    171                                       2,041                                 12

       3                     42                                            32                                3

       4                  1,299                                     12,419                                 109

       5                    456                                            55                                3

       6                    518                                       3,824                                 33

       7                     22                                           913                              110

       8                    697                                       6,638                                 10

       9                     27                                            83                               30

      10                    853                                           772                               10

Source: Online Survey Certification and Reporting Database (OSCAR), 2003




OEI-09-04-00100                    L I F E T I M E R E S E R V E D AY S                                                        14
     ∆            A P P E N D I X                                 ~        D




                                                                Beneficiary Interviews


   Age           Number of LRDs           Beneficiary Comments about LRDs

                                          The hospital explained the lifetime reserve days but I don’t understand. I can’t afford to lose my
   35                    60
                                          Medicare benefits. (Beneficiary)
                                          I do not understand the lifetime reserve days benefit. Where can I go for help? I am most
   67                      2              concerned about the care my spouse is getting. Everyone seems too busy to help.
                                          (Representative)

   43                    60               Unable to contact beneficiary or family.

   26                      2              Unable to contact beneficiary or family.

   87                      4              Family and beneficiary refused to be interviewed.

   90                    60               Family and beneficiary refused to be interviewed.

                                          I understood the information about LRDs after the hospital explained it. The secondary
                                          insurance required that we use the LRDs. An additional notice would not have made any
   81                    60
                                          difference but something in writing might have helped us understand the charges. My parent
                                          handled all Medicare up to this episode. (Representative)
                                          We were never given any options. An additional notice would not have made a difference. We
   82                    50
                                          had no choice. This was a very prolonged stay. (Representative)
                                          The hospital was of little help. Our family called Medicare and searched the Medicare Web site
   73                    55
                                          for assistance. My parent does not understand Medicare benefits. (Representative)
                                          Disabled. We were unaware of any choices. We were told I was ineligible for Medicaid
   61                    60
                                          because of a pre-existing condition. (Beneficiary)
                                          We (parents) were told that Medicaid and private insurance were primary coverage. We were
     4                     5 (D)
                                          not informed of any Medicare obligations. (Representative)

   38                      4              Disabled. No recollection of any mention of LRDs or financial obligations. (Beneficiary)

                                          Disabled. Medicaid and Medicare qualified. The hospital explained my benefits. I received
   41                      5              good printed materials, but did not understand LRDs. It didn’t matter about the option to use
                                          them. I needed to be in the hospital. (Representative)

   11                     53 (D)          Hospital provided no information at all. We called Medicare directly. (Representative)

                                          Before this episode, my parent (beneficiary) took care of benefits. I (Representative) had no
   83                     54 (D)
                                          knowledge of options. The hospital gave me no useful information. (Representative)
                                          I do not understand any of the Medicare benefits. I do not remember anything about LRDs.
   60                      6
                                          (Beneficiary)
                                          I have no recollection of any information from the hospital. I have coverage under Medicaid
   61                      9
                                          and VA as well as Medicare. (Beneficiary)

   87                    60               Unable to contact beneficiary or family.

                                          The hospital reported that no LRDs were used. The Beneficiary received a letter regarding the
   72                      6 (D)
                                          option to use LRDs. (Representative)

   57                      6              Unable to contact beneficiary or family.

                                                                                                                (D) Deceased beneficiaries
Source: Beneficiary interviews, Office of Evaluation and Inspections, 2004

  OEI-09-04-00100                        L I F E T I M E R E S E R V E D AY S                                                             15
  ∆         A P P E N D I X                           ~     E


            Agency Comments




OEI-09-04-00100      L I F E T I M E R E S E R V E D AY S       16
    A P P E N D   I X ~ E                      





OEI-09-04-00100   L I F E T I M E R E S E R V E D AY S   17
∆
      A C K N O W L E D G M E N T S

This report was prepared under the direction of Paul Gottlober, Regional Inspector General for
Evaluation and Inspections in the San Francisco regional office, and Deborah Harvey,
Assistant Regional Inspector General. Other principal Office of Evaluation and Inspections
staff who contributed include:

                        Tim Brady, Project Leader

                        Silvia Chin, Program Analyst

                        Rob Gibbons, Program Analyst

                        Linda Frisch, Program Specialist

                        Tricia Schmitt, Program Specialist

                        Bambi Straw, Program Specialist

                        Tricia Davis, Director, Medicare and Medicaid Branch



                        Technical Assistance

                        Barbara Tedesco, Mathematical Statistician




OEI-09-04-00100         L I F E T I M E R E S E R V E D AY S                                18
